The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                   WASHINGTON, DC 20436

                                        November 30, 2012




Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (the IG Act),
the U.S. International Trade Commission (USITC or Commission) hereby transmits the
Semiannual Report of the USITC Inspector General for the period April 1, 2012 to September 30,
2012.

The Commission appreciates the work done by the Office of Inspector General in assuring the
effectiveness, efficiency, and integrity of Commission programs and operations. Inspector
General Philip M. Heneghan and his staff continue to provide invaluable assistance to the
Commission. We look forward to continuing to work with Mr. Heneghan as we address the
issues raised in his report.

The Inspector General’s Semiannual Report to Congress identifies the top management and
performance challenges in FY 2012 that require significant attention from the USITC. The
Commission concurs with the critical challenges identified by the Inspector General. We
continue our efforts to address these challenges to ensure that our internal operations are well
managed, as evidenced by our receipt of unqualified audit opinions on the Commission’s FY
2011 and FY 2012 financial statements. The corrective action plans we have in place will
answer the challenges identified by the Inspector General, and we already have completed a
number of these corrective actions.

The actions we are taking with respect to the Inspector General’s identified broad management
challenges on (1) internal control, (2) financial management, and (3) using information
technology to improve staff productivity, are summarized in Part I of this message. Part II of this
message addresses the status of specific corrective actions that were taken in response to Inspector
General recommendations.
                                                 1
I.     Addressing Management and Performance Challenges

       A. Internal Control

The Commission takes its responsibility for establishing and maintaining an effective
system of internal controls seriously. It has already taken or is in the process of taking a
number of steps to ensure the Commission’s control environment meets the Federal
Managers’ Financial Integrity Act’s objectives of effective and efficient operations, reliable
financial reporting, and compliance with laws and regulations.

In the financial management area, where control weaknesses were initially identified, the
USITC has developed its first comprehensive accounting manual that establishes policies
and procedures on how financial management transactions should be accounted for on a
consistent basis. Moreover, the Commission made significant progress with respect to
strengthening its ability to maintain an effective system of internal control when it hired an
experienced Chief Financial Office (CFO) who has recruited well-qualified people to assist
him. The Commission recognizes the importance of proper agency-wide training on internal
controls and the CFO’s office has held training sessions across the Commission in order to
enhance agency awareness on what proper internal controls are, why they are important,
and how to ensure that they continue operating as designed.

Following initiatives begun last year, program managers have continued to document
detailed procedures of their operations through process mapping, with the objective of
gaining a better understanding of how they can carry out their mission more effectively and
efficiently. The Commission is committed to a comprehensive program of documenting and
improving its processes to ensure that daily tasks are performed in accordance with
management’s intentions.

As a result of the foregoing initiatives, the Commission has begun to change its culture as it
relates to adherence to internal controls. The sustained commitment to systems of internal
controls will help ensure that we are on the right track to accomplishing our goals.


       B. Financial Management

The Commission recognizes that in order for managers to make well informed business
decisions it needs a comprehensive financial management program that provides managers
with a tailored view of financial data. Such a program must include systems that integrate
and coordinate budget formulation, execution, and financial reporting. To move towards
this capability, the Commission is upgrading the type and format of budget data available
through current systems.

The development of a new financial management program, the formation of the Office of
the Chief Financial Officer (OCFO), and the recruitment of highly qualified staff are steps
the Commission has taken to ensure that all stakeholders are well informed of budget
priorities and methodologies. These steps should help address the management challenge of
transforming financial management from an accounting exercise to a process that provides
                                                 2
 transparency and accountability in the formulation, execution, performance, and
 management of agency budgetary resources.

 Through the establishment of the new Executive Management Council and its associated
 subcommittees, the Commission has established a cross-cutting management and
 communications system that will help ensure that all senior managers can effectively
 contribute toward setting agency-wide objectives, including those related to financial
 management. This new system has the benefit of better integrating agency-wide objectives,
 including those related to strategic and performance objectives, human capital planning, and
 financial management.

        C. Using Information Technology to Improve Staff Productivity

Information technology is integral to the Commission’s operations and the productivity of its
staff. The Commission recognizes that more needs to be done in this area to support and improve
staff productivity, and is committed to doing so. Staff frequently perform Commission work
while off premises, and should be able to do so in the event that the primary data center becomes
unavailable. The Chief Information Officer (CIO) has already taken steps to prepare for an
alternate data center through virtualization and expanded bandwidth. In the coming Fiscal Year,
the Commission will complete its work in support of the alternate data center and enhanced
remote access capabilities.


 II.    Actions on Recommendations

       A. Actions on Inspector General Recommendations Made in this Reporting Period

During this semiannual reporting period, the Inspector General issued four new reports that
included a total of 23 new recommendations. The Commission issued management decisions on all
20 recommendations contained in the first three reports. As the fourth report was only issued in
the last month of the reporting period and management decisions for corrective actions on the 3
recommendations in that report were not due until after the completion of the reporting period,
management decisions were timely delivered in the first month of the subsequent period.

The Commission made management decisions for all recommendations made in prior periods, and
completed final action on management decisions for two reports during this reporting period. The
Commission remains focused on addressing and resolving all of its outstanding management
decisions.

       B. Actions on Recommendations Made from Prior Periods

       (1) The Report notes that the Commission has not yet completed final action as it relates
           to COOP planning. As referenced in 1.C above, the Commission plans to complete its
           work in support of the alternate data center and enhanced remote access capabilities in
           the coming Fiscal Year, as scheduled.



                                                 3
       (2) The Report notes that the Commission has not completed final action on a 2010
           recommendation to bring its transit program into compliance with applicable laws and
           regulations. The Commission requested the Comptroller General of the United States
           to review its transit program. The decision, rendered on August 3, 2012, stated that the
           Commission’s transit program would be in compliance with applicable laws and
           regulations if it were needed to avoid significant impairment to the Agency’s
           operating efficiency. The Commission has temporarily continued its [subsidized]
           transit program in Fiscal Year 2013 while it collects information needed to render a
           decision on significant impairment. The Commission plans to make this determination
           by May 31, 2013.

       (3) The Report notes that the Commission has not completed final action on
           recommendations associated with the audit of accounts management. This audit called
           on OCIO to evaluate opportunities to reduce the number of authentication systems in
           use. This task remains in progress, but other significant IT infrastructure changes
           required to be put in place by the end of FY2012 increased the time required to
           effectively complete the accounts management task. Management decisions are
           expected to be completed in the first half of FY2013.

The statistical tables required under the IG Act are included as Appendix A to this report.


       C. Actions on External Reviews

During the reporting period, the Commission made progress addressing recommendations from
previous external reviews conducted by different oversight agencies. These included a review by
the U.S. Equal Employment Opportunity Commission (EEOC) of the Commission’s EEO
program and a review by the Office of Personnel Management (OPM) of human capital
management. During the reporting period the Commission completed final action on all the
outstanding EEOC recommendations. This included an update to the USITC’s anti-
harassment/discrimination-free policy, a revision to the Agency’s reasonable accommodations
procedures for individuals with disabilities, and progress reports and analyses on trigger and
barrier elements in the workplace. During the reporting period the Commission also continued to
make progress carrying out the management decisions associated with the human capital
management evaluation. This included work on a draft strategic human capital plan and an
evaluation of USITC’s training program. The training report is expected to be delivered in
December 2012. During the reporting period the OPM notified the Commission of an upcoming
human capital management evaluation set to begin in March of 2013. The Commission is
currently preparing materials for the review.




 Irving A. Williamson
 Chairman
                                                  4
      UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436


October 31, 2012                                                    OIG-KK-018

Commissioners:

Attached is the Semiannual Report summarizing the activities of the Office of Inspector
General for the period April 1, 2012, to September 30, 2012.

During this period, we issued four reports and made 23 recommendations to promote the
efficiency, effectiveness, and integrity of the Commission’s operations. We also
developed an annual plan that identified 14 potential areas for review in fiscal year 2013.

I would like to thank you for your commitment to strengthening the operations of the
Commission and supporting the work of my office. During this reporting period, the
Commission completed final action on 38 Inspector General recommendations and eight
recommendations made by external oversight organizations.




Philip M. Heneghan
Inspector General
                    U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS


Office of Inspector General.............................................................................................. 1

Semiannual Report Requirements .................................................................................. 1

Top Management and Performance Challenges............................................................ 1
  1. Internal Control.......................................................................................................... 2
  2. Financial Management ............................................................................................. 2
  3. Using Information Technology to Improve Staff Productivity.................................. 3

Inspector General Reports Issued During this Period .................................................. 4
  Audit of Software Licensing, OIG-AR-12-10 ................................................................ 5
  Evaluation of Modifications to the Harmonized Tariff Schedule, OIG-ER-12-08 ........ 5
  Evaluation on Controlling Confidential Business Information and Business Proprietary
  Information, OIG-ER-12-09 ........................................................................................... 6
  Evaluation of the Trade Remedy Assistance Office, OIG-ER-12-11............................. 6

Significant Recommendations from Prior Periods ........................................................ 7

Hotline and Investigations................................................................................................ 8
 Investigations and Inquiries – Overview ........................................................................ 8
 OIG Hotline Contacts ..................................................................................................... 8
 Investigations and Inquiries ............................................................................................ 8

External Reviews Completed During this Period .......................................................... 9

Status of Actions Related to External Reviews Completed During Prior Periods ..... 9
  U.S. Equal Employment Opportunity Commission – EEO Program Review................ 9
  Office of Personnel Management – Human Resources Review ..................................... 9

Council on Inspectors General for Integrity and Efficiency Activities...................... 10

Federal Financial Management Improvement Act Reporting ................................... 10

Peer Review ..................................................................................................................... 11

Tables
  Table 1:       Reporting Requirements Index ...................................................................... iii
  Table 2:       Management and Performance Challenges ..................................................... 2
  Table 3:       Reports by Subject Matter ............................................................................... 4
  Table 4:       Significant Recommendations from Prior Reports........................................ 12
  Table 5:       Reports with Questioned or Unsupported Costs............................................ 12


                                                                 i
                              Report Period: April 1, 2012 through September 30, 2012
              U.S. International Trade Commission
                         Inspector General Semiannual Report

 Table 6: Reports with Recommendations that Funds be Put to Better Use ................. 13
 Table 7: Reports With Final Action Completed During This Reporting Period ......... 14
 Table 8: Status of Reports Issued Without Final Action ............................................. 15

Appendices
Appendix A: Chairman’s Statistical Tables…………………………………………...A-1




                                                  ii
                      Report Period: April 1, 2012 through September 30, 2012
          U.S. International Trade Commission
                     Inspector General Semiannual Report

                         Table 1: Reporting Requirements Index



                          Reporting Requirements Index

   IG Act                                  Description                       Page
Section 4(a)(2)       Review of Legislation                                  None
                      Description of Significant Problems, Abuses, and
Section 5(a)(1)                                                              1-4
                      Deficiencies
                      Description of Recommendations for Corrective
Section 5(a)(2)       Action with Respect to Significant Problems, Abuses,   5-7
                      and Deficiencies
                      Significant Recommendations From Prior Reports on
Section 5(a)(3)                                                               7
                      Which Corrective Action Has Not Been Completed
                      A Summary of Matters Referred to Prosecuting
Section 5(a)(4)                                                              None
                      Authorities
                      Summary of Instances Where Information or
Section 5(a)(5)                                                              None
                      Assistance was Unreasonably Refused
                      Listing by Subject Matter of each Report Issued
Section 5(a)(6)                                                               4
                      during this Reporting Period
Section 5(a)(7)       Summary of Significant Reports                         5-7
                      Statistical Table showing Questioned and
Section 5(a)(8)                                                               12
                      Unsupported Costs
                      Statistical Table showing Recommendations Where
Section 5(a)(9)                                                               13
                      Funds Could be Put to Better Use
                      Summary of Audit Reports Issued Before the Start of
Section 5(a)(10)      the Reporting Period for Which no Management           None
                      Decision Has Been Made
                      Description of Any Significant Revised Management
Section 5(a)(11)                                                             None
                      Decisions
                      Information Concerning any Significant Management
Section 5(a)(12)
                      Decision with Which the Inspector General is in        None
                      Disagreement
Section 5(a)(13)      Information described under section 5(b) of FFMIA       10
                      Results of Peer Review Completed During This
Section 5(a)(14)                                                              11
                      Period or Date of Last Peer Review
                      List of Any Outstanding Recommendations From
Section 5(a)(15)                                                              11
                      Peer Review
                      List of any Peer Reviews Conducted of Another
Section 5(a)(16)                                                              11
                      Office of Inspector General During this Period




                                             iii
                   Report Period: April 1, 2012 through September 30, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report


                         Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Inspector
General provides audit, evaluation, inspection, and investigative services covering all
Commission programs and operations. The mission of the Inspector General is to
promote and preserve the effectiveness, efficiency, and integrity of the Commission. The
Office of Inspector General’s activities are planned and conducted based on requirements
of laws and regulations, requests from management officials, allegations received from
Commission personnel and other sources, and initiatives of the Inspector General.




                     Semiannual Report Requirements
The IG Act requires each Inspector General to prepare a Semiannual Report that
summarizes the activities of the office. As such, this report covers the period from
April 1, 2012, through September 30, 2012. The 17 requirements, shown in Table 1, are
specified in the IG Act and must be included in the report. The layout of this Semiannual
Report is described below.

This Semiannual Report starts with a description of the Management Challenges Report,
OIG-MR-13-02, which identified the three most significant management challenges
facing the Commission. It then summarizes the results of the four reports issued during
this period, describes significant recommendations from prior reports where final action
is not complete, and summarizes the hotline and investigation activities of the Inspector
General. The next section provides a summary of the reviews conducted by external
parties related to the Commission along with the status of recommendations issued. The
last sections supply information on other reportable activities such as Congressional
activity, participation in the Council on Inspectors General for Integrity and Efficiency,
other compliance activities, and our Peer Review status. Additional tables at the end of
the report detail statistics on Office of Inspector General reports and recommendations.




           Top Management and Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the Commission in the coming year. The Inspector
General provided the Commission with a report, OIG-MR-13-02 on October 15, 2012.
The report identified the challenges based on information learned from audit, evaluation,

                                               1
                        Report: April 1, 2012 through September 30, 2012
              U.S. International Trade Commission
                       Inspector General Semiannual Report

and inspection work, a general knowledge of the Commission’s programs and activities,
and input from management regarding challenges facing the agency and efforts the
agency has taken to address them. The management and performance challenges
identified by the Office of Inspector General include the three areas identified in Table 2.


                      Table 2: Management and Performance Challenges

                    Management and Performance Challenges
           1. Internal Control
           2. Financial Management
           3. Using Information Technology to Improve Staff Productivity



1. Internal Control
The Commission’s management is responsible for establishing and maintaining a system
of internal controls that can ensure effective and efficient operations, reliable financial
reporting, and compliance with laws and regulations. Recent reviews have identified
issues associated with weak or in some cases non-existent internal controls. The most
significant weaknesses identified were related to the Federal Manager’s Financial
Integrity Act and OMB Circular A-123, Management’s Responsibility for Internal
Control.

Although initially identified in the financial management area, the internal control
weaknesses appear to be a systemic problem throughout the Commission. Given the
Commission’s long standing culture of undocumented and informal processes to
complete daily tasks, it is likely to take a sustained level of commitment to improve
overall levels of internal control. Documented and consistent processes and procedures
are necessary to provide a reasonable level of assurance that offices are operating in an
efficient and cost-effective manner.

The most significant challenge will be to manage the cultural changes associated with
implementing new systems of internal control throughout the Commission. This will
require first line supervisors to check, inspect, or review the work of subordinates to
make sure the new procedures are being followed.

2. Financial Management

As a result of its disclaimer on the 2009 financial statements, the Commission recognized
the importance of implementing corrective actions to address financial management


                                               2
                        Report: April 1, 2012 through September 30, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report

deficiencies. Improvements resulted in a qualified opinion on the 2010 financial
statements and an unqualified opinion on the 2011 financial statements. In addition, the
Commission recently hired a Chief Financial Officer to oversee financial management
activities of the Commission.

The Commission is responsible to ensure that managers have access to timely, reliable,
and practical information to make informed decisions. The Commission does not have
the systems required to integrate and coordinate budget formulation, execution, and
financial reporting into a comprehensive financial management program that provides
accountability for agency funds and provides essential data to managers for decision
making purposes.

The Commission’s budget formulation and execution process can provide better
information on past execution to decision makers. This means that decisions impacting
resource allocations for agency operations are made without sufficient input from key
stakeholders who have the necessary information.

Budget formulation, budget execution, accounting, and financial reporting should be fully
integrated and have processes that promote accountability. The lack of timely and
practical financial reports deprive managers of information needed to effectively monitor
the expenditure of funds, evaluate program performance, and make informed financial
decisions on their programs and operations.

The management challenge will be to transform the current approach to financial
management from an accounting exercise to a process that provides for accountability in
the formulation, execution, performance, and management of agency budgetary
resources.


3. Using Information Technology to Improve Staff Productivity

Knowledge workers require a stable, productive information technology platform to
efficiently and effectively perform their work. Skilled staff are expected to perform their
mission whether on or off premises, and the platform supporting their work should be
resilient enough to allow work to continue even in the absence of the primary data center.

The CIO has taken steps to prepare for an alternate data center through virtualization and
expanded bandwidth. However, the complexity introduced with virtualization and
difficulties encountered with the bandwidth upgrade must be understood and addressed to
ensure that the alternate data center can function as intended.

Temporary outages such as full fileservers have negatively impacted staff working
locally, and a remote access platform inconsistent with the desktop experience has


                                               3
                        Report: April 1, 2012 through September 30, 2012
                U.S. International Trade Commission
                           Inspector General Semiannual Report

 lowered the productivity of Commission staff working offsite. To improve productivity,
 the Commission should prioritize the appropriate skills and resources in the right areas to
 ensure that both basic and enhanced services work well and contribute to a stable,
 consistent environment to effectively serve its staff regardless of their location, or the
 situation at the primary data center.




         Inspector General Reports Issued During this Period
 The Inspector General issued four reports with a total of 23 recommendations during this
 reporting period. The Commission made management decisions on 20 recommendations
 in three reports, and the Inspector General agreed with all the management decisions.
 Management decisions on the remaining recommendations from the fourth report were
 not due until after this reporting period had closed.

 A listing of each report issued during this reporting period, by subject matter, is provided
 in Table 3 below.

                                 Table 3: Reports by Subject Matter

                                   Reports by Subject Matter
  Subject           Report                                            Date           Number of
                                          Report Title
  Matter            Number                                           Issued       Recommendations
                                Evaluation of Modifications
Operations       OIG-ER-12-08   to the Harmonized Tariff         06/13/2012                 8
                                Schedule
                                Evaluation on Controlling
                                Confidential Business
Operations        OIG-ER-12-09                                   06/20/2012                 6
                                Information and Business
                                Proprietary Information
IT Security       OIG-AR-12-10  Audit of Software Licensing      08/16/2012                 6
                                Evaluation of the Trade
Operations        OIG-ER-12-11                                   09/12/2012                 3
                                Remedy Office
Total Recommendations Issued During This Reporting Period                                  23
NOTE: There were no questioned costs, unsupported costs or funds identified that could be put to better
use in any of these reports.




                                                    4
                            Report: April 1, 2012 through September 30, 2012
              U.S. International Trade Commission
                       Inspector General Semiannual Report

The title, key findings, and summary information of each of the reports are provided as
follows.

Audit of Software Licensing, OIG-AR-12-10

RESULT: The audit determined that the Commission was not paying for all installed
software.

We performed an audit of software and the associated licensing agreements installed on
the network to determine if the Commission had paid for all applications installed on the
network. We collected and analyzed information describing the software installed on the
network, and compared this to the Commission’s proof of licensing for these products.
We found that the Commission did not have a complete record of all software installed
on its network.

We also found that the Commission did not always clearly understand the terms of its
license agreements, as a result they did not comply with the license terms for some of its
installed software. Until the Commission knows the software licensing obligations for
applications on its network, it cannot ensure that it is paying for all installed software.

We issued six recommendations to address the problems identified with the
Commission’s software licensing obligations for applications installed on its network.
The Chairman agreed with the findings and made management decisions to implement
the recommendations.

Evaluation of Modifications to the Harmonized Tariff Schedule, OIG-ER-12-08

RESULT: The evaluation found that the Commission did not accurately reflect changes
to the Harmonized Tariff Schedule of the United States in a timely manner.

We reviewed four documents that prompted 423 changes to the Harmonized Tariff
Schedule to determine if the modifications had been completed correctly and provided to
the public on or before the effective date. Of the 423 modifications evaluated, we
identified 45 substantive errors and other typographical errors. We identified two
problem areas associated with the inaccurate modifications to the Harmonized Tariff
Schedule and two problem areas related to the integrity and transparency of Harmonized
Tariff Schedule information provided through the public website. These problem areas
are listed below:

   1) The Commission did not have a documented standard procedure for making
      changes to the Harmonized Tariff Schedule.
   2) The Commission did not have a documented supervisory review process for
      changes made to the Harmonized Tariff Schedule.

                                               5
                        Report: April 1, 2012 through September 30, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report

   3) The Commission did not track corrections made to the Harmonized Tariff
      Schedule.
   4) The Commission presented inconsistent versions of the Harmonized Tariff
      Schedule on the Commission’s website.

We issued eight recommendations to address the problem areas identified in the
evaluation report. The Chairman concurred with our assessment and made management
decisions to implement all of the recommendations. The Commission completed action
on five of the eight recommendations during this reporting period.

Evaluation on Controlling Confidential Business Information and Business
Proprietary Information, OIG-ER-12-09

RESULT: The evaluation determined that the Commission did not effectively control the
use and retention of Confidential Business Information and Business Proprietary
Information at the end of investigations and proceeding.

The Commission’s Electronic Document Information System (EDIS) is the repository for
all documents filed in relation to an investigation or proceeding conducted by the
Commission. This evaluation was limited to nonrecord CBI/BPI documents maintained
outside of EDIS.

We evaluated the Commission’s policies, procedures, and practices for controlling the
use and retention of CBI/BPI at the end of investigations and proceedings. We found:

    x   The Commission’s policies were outdated and incomplete;
    x   Individuals maintained CBI/BPI indefinitely as a routine practice as a matter of
        convenience and preference; and
    x   Individuals had not been adequately trained to handle, control, and destroy
        nonrecord copies of CBI/BPI.

We identified two problem areas and issued six recommendations. The Chairman agreed
with our assessment, acknowledged the problem areas and developed management
decisions to address the recommendations.

Evaluation of the Trade Remedy Assistance Office, OIG-ER-12-11

RESULT: The evaluation determined that the Trade Remedy Assistance Office was
fulfilling its statutory duties under 19 USC 1339.

We evaluated the operations of the Trade Remedy Assistance Office to determine if the
Commission was fulfilling its statutory duties under 19 USC 1339. The Trade Remedy


                                              6
                       Report: April 1, 2012 through September 30, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report

Assistance Office is unique among agencies administering trade laws in that it is a
statutorily mandated office, whose purpose is to provide information on trade remedies to
the public and assistance to small businesses seeking trade remedies.

We reviewed regulations, interviewed staff, and surveyed individuals that had used the
Trade Remedy Assistance Office. We found that the Commission provided information
and assistance consistent with the requirements under the statute.

We determined that the Commission had been fulfilling its duties under the statute and
identified two areas for improvement. We issued three recommendations to address the
areas for improvement. The Chairman agreed with the findings of the report and was in
the process of developing management decisions to address the recommendations at the
time the reporting period closed.




         Significant Recommendations from Prior Periods
The Inspector General identified recommendations from prior periods as significant. The
recommendations are associated with disaster planning, testing major applications, and
having an alternate processing facility. They are significant because the Commission
may be unable to restore core business functions or minimize the disruption of services if
an event were to occur. A listing that identifies these recommendations along with the
report number is provided in Table 4.




                                               7
                        Report: April 1, 2012 through September 30, 2012
              U.S. International Trade Commission
                       Inspector General Semiannual Report


                           Hotline and Investigations

Investigations and Inquiries – Overview

In accordance with professional standards and guidelines, the Inspector General conducts
investigations and inquiries of criminal, civil, and administrative wrongdoing involving
Commission programs, operations, and personnel. Investigations may involve possible
violations of regulations regarding employee responsibilities and conduct, Federal
criminal law, and other statutes and regulations pertaining to the activities of the
Commission.

The Inspector General reviews and analyzes all complaints received to determine the
appropriate course of action. In instances where it is determined that something less than
a full investigation is appropriate, the Inspector General may conduct a preliminary
inquiry into the allegation. If the information obtained during the inquiry indicates that a
full investigation is warranted, the Inspector General will commence an investigation of
the allegation.

OIG Hotline Contacts

The OIG maintains a Hotline for reporting information about suspected waste, fraud,
abuse, or mismanagement involving Commission programs or operations. Information
may be provided by telephone, fax, email, mail, or through a web-based form. Upon
request, a provider’s identity will be kept confidential. Reports may also be made
anonymously.

We receive complaints from employees, contractors, and the public that involve the
Commission’s areas of responsibility. We examine these complaints to determine
whether there is any indication of Commission wrongdoing or misconduct. If the
complaint does not relate to the USITC, we refer the complaint to the appropriate agency
for response. If the complaint does not have merit, we close the matter.

The OIG has worked to increase awareness of the Hotline throughout the Commission by
creating a series of Hotline posters and holding OIG Outreach sessions with Commission
offices.

Investigations and Inquiries

The Inspector General did not have any investigation or inquiry activity to report during
this reporting period.




                                               8
                        Report: April 1, 2012 through September 30, 2012
             U.S. International Trade Commission
                      Inspector General Semiannual Report


          External Reviews Completed During this Period
The Commission did not have any external reviews completed during this reporting
period.




    Status of Actions Related to External Reviews Completed
                      During Prior Periods

U.S. Equal Employment Opportunity Commission – EEO Program Review

The Equal Employment Opportunity Commission (EEOC) performed an evaluation of
the Commission’s progress towards becoming a model Equal Employment Opportunity
(EEO) workplace. The evaluation measured whether the Commission meets the six
essential elements of a model EEO program, as defined by Title VII of the Civil Rights
Act of 1964, and Section 501 of the Rehabilitation Act of 1973, as amended.

The final report was issued on December 15, 2010, and contained 11 recommendations to
improve five of the six essential elements of a model EEO program. The report also
acknowledged that the Commission had attained maximum efficiency in Element 5,
regarding the ability to resolve most workplace issues through informal methods.

The Commission has developed management decisions to address the recommendations.
In the prior reporting period, the Commission had completed final action on three of the
recommendations. During this reporting period the Commission completed final action
on all eight of the remaining recommendations.

Office of Personnel Management – Human Resources Review

The Office of Personnel Management completed an external review of the Commission’s
human resource program on August 26, 2009. The purpose of the review was to evaluate
the human capital program at the Commission. This evaluation resulted in 83
recommendations made to the Commission to ensure compliance with laws and to
strengthen the management and administration of the Commission’s human capital
program.

The Commission made management decisions to implement all of the recommendations
and in prior reporting periods completed final action on 73 of the recommendations. The
Commission did not take final action on any of the remaining 10 management decisions


                                              9
                       Report: April 1, 2012 through September 30, 2012
             U.S. International Trade Commission
                       Inspector General Semiannual Report

during this reporting period, but has instituted plans to implement them in the subsequent
reporting period.




                            Congressional Activities
The Inspector General responded to two congressional inquiries this reporting period.
The first inquiry was from the Ranking Member of the House Committee on Finance, and
the Ranking Member of the Senate Committee on Homeland Security and Governmental
Affairs, Permanent Subcommittee on Investigations. They were seeking information on
the status of the Commission’s open and unimplemented recommendations. We first
provided this information in March of 2010, and it has since become an annual data call
to the Inspector General community.

The second request was received from the Chairman and Ranking Minority Member of
the Committee on Oversight and Government Reform. They were requesting
information on the use of seven-day letters, a description of serious or flagrant problems
that were not reported to Congress, and to obtain my office’s understanding of section 4
(a) (5) of the IG Act.




   Council on Inspectors General for Integrity and Efficiency
                          Activities
The Inspector General has actively participated in meetings and supported the efforts of
the Council on Inspectors General for Integrity and Efficiency (CIGIE).

The Office of the Inspector General staff have volunteered to serve as members on
various working groups and committees that address cross-cutting issues such as,
knowledge management, cloud computing, investigations, cyber security, new media,
small agencies concerns, and legislative issues.




 Federal Financial Management Improvement Act Reporting
The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report “instances and reasons” when
the agency has not met intermediate target dates established in a remediation plan to

                                              10
                        Report: April 1, 2012 through September 30, 2012
             U.S. International Trade Commission
                      Inspector General Semiannual Report

bring the agency’s financial management system into substantial compliance with the
FFMIA. The Commission is not subject to the FFMIA; however, it voluntarily seeks to
comply with most of its requirements. During this reporting period, there were no events
giving rise to a duty to report under FFMIA.



                                    Peer Review
The last peer review of the Office of Inspector General was for the period ending
September 30, 2009, and the report was issued on May 27, 2010. All recommendations
made during the review were implemented by September 16, 2010. The full report is
posted on our web site.

The peer review schedule is set by the CIGIE. The next audit peer review will cover the
period through September 2012. In addition, my office is scheduled to perform an audit
peer review of another Agency that will cover fiscal year 2013.




                                             11
                       Report: April 1, 2012 through September 30, 2012
                U.S. International Trade Commission
                           Inspector General Semiannual Report

Table 4: Prior Significant Recommendations Where Corrective Action Has Not Been Completed

                        Prior Significant Recommendations
                  Where Corrective Action Has Not Been Completed
    Report Number                                        Recommendation
                         Ensure major applications and general support system contingency plans
    OIG-AR-04-05
                         are updated and tested in accordance with NIST SP-800-34 guidelines.
                         With respect to each mission-critical application and general support
                         system, determine if an alternate processing facility is necessary and
    OIG-AR-04-05         identify the respective facility. At this alternate facility, contingency
                         plans should be tested and arrangements made for its use in the event of a
                         major interruption or disaster.


                      Table 5: Reports with Questions and Unsupported Costs

                   Reports with Questioned and Unsupported Costs
                                   Section 5(a)8
                                                Number of          Questioned          Unsupported
              Description
                                                 Reports             Costs                Costs
Reports for which no management
decision has been made by the
                                                         0                $0                   $0
commencement of the reporting
period.
Reports issued during the reporting
                                                         4                $0                   $0
period.
                             Subtotals                                    $0                   $0
Reports for which a management
decision was made during the                             3                $0                   $0
reporting period.
    x Dollar value of disallowed
                                                         0                $0                   $0
        costs.
    x Dollar value of allowed costs.                     0                $0                   $0
Reports for which no management
decision has been made by the end of                     11               $0                   $0
the reporting period.




1
 Management decisions were received in response to three of the four reports issued during this reporting
period; management decisions on report number OIG-ER-12-11 were not due until after the reporting
period had closed.

                                                    12
                            Report: April 1, 2012 through September 30, 2012
                U.S. International Trade Commission
                           Inspector General Semiannual Report

              Table 6: Reports w/ Recommendations that Funds be Put to Better Use

         Reports with Recommendations that Funds be Put to Better Use
                               Section 5(a)9
                                                                  Number of          Funds Put to
                          Description
                                                                   Reports            Better Use
    Reports for which no management decision has been
                                                                          0                  $0
    made by the commencement of the reporting period.
    Reports issued during the reporting period.                           4                  $0
                                                Subtotals                                    $0
    Reports for which a management decision was made
                                                                          3
    during the reporting period.
        x Dollar value of recommendations agreed to by
                                                                                             $0
            management.
        x Dollar value of recommendations not agreed
                                                                                             $0
            to by management.
    Reports for which no management decision has been
                                                                          12                 $0
    made by the end of the reporting period.
                                                Subtotals                                    $0




2
 Management decisions were received in response to three of the four reports issued during this reporting
period; management decisions on report number OIG-ER-12-11 were not due until after the reporting
period had closed.

                                                    13
                            Report: April 1, 2012 through September 30, 2012
              U.S. International Trade Commission
                         Inspector General Semiannual Report

          Table 7: Reports With Final Action Completed During this Reporting Period

                         Reports With Final Action Completed
                            During this Reporting Period
                          Reports Issued This Reporting Period
                                                              Final Action     Final Action
                                    # of        Mgt.
          Report Title                                        Complete in     Complete This
                                    Recs.     Decisions
                                                              Prior Periods       Period
                          Totals      0             0               0                0
                                   Prior Reporting Periods
                                                              Final Action     Final Action
                                    # of        Mgt.
          Report Title                                        Complete in     Complete This
                                    Recs.     Decisions
                                                              Prior Periods       Period
  Audit of Incident Management,
1                                     8             8               1                 7
  OIG-AR-11-16
  Audit of Patch Management,
2                                     4             4               1                 3
  OIG-AR-11-17
                         Totals       12            12              2                 10




                                               14
                         Report: April 1, 2012 through September 30, 2012
                U.S. International Trade Commission
                            Inspector General Semiannual Report

                       Table 8: Status of Reports Issued Without Final Action

                     Status of Reports Issued Without Final Action
                                       This Reporting Period
                                                                Decisions                  Final
                                                                                Final
                                        # of       Mgt.            IG                      Action
             Report Title                                                       Action
                                        Recs.    Decisions      Disagrees                   Not
                                                                               Complete
                                                                  With                    Complete
    Evaluation of Modifications to
1                                         8            8             0            5          3
    HTS, OIG-ER-12-08
    Evaluation of Controlling
2                                         6            6             0            0          6
    CBI/BPI, OIG-ER-12-09
    Audit of Software Licensing,
3                                         6            6             0            0          6
    OIG-AR-12-10
    Evaluation of TRAO,
4                                         3            0             0            0          3
    OIG-ER-12-11
            Subtotal Current Period       23           20            0            5          18
                                       Prior Reporting Periods
                                                                  Final         Final
                                                                                           Final
                                                                 Action         Action
                                        # of       Mgt.                                    Action
             Report Title                                       Complete       Complete
                                        Recs.    Decisions                                  Not
                                                                  Prior          This
                                                                                          Complete
                                                                 Periods        Period
    FISMA FY 2004 Performance
1                                         14           14           12            0          2
    Audit, OIG-AR-04-05
    Compliance with Laws and
2                                         2            2             1            0          1
    Regulations, OIG-AR-11-04
    Audit of Account Management,
3                                         8            8             5            1          2
    OIG-AR-11-11
    Inspection of Physical Security,
4                                         22           22            0            8          14
    OIG-SP-11-12
    Audit of Continuous
5                                         4            4             0            3          1
    Monitoring, OIG-AR-11-15
    Report on Internal Control for
6                                         12           12            2            4          6
    FY 2011, OIG-AR-12-03
    Management Letter for FY
7   2011 Financial Statement              3            3             1            1          1
    Audit, OIG-ML-12-05
    Audit of Title VII Preliminary
8                                         2            2             0            1          1
    Process, OIG-AR-12-06
    Evaluation of Employee Out-
9   Processing Program,                   11           11            0            5          6
    OIG-ER-12-07
               Subtotal Prior Period      78           78           21            23         34



                                                  15
                            Report: April 1, 2012 through September 30, 2012
             U.S. International Trade Commission
                                        Appendix A

Appendix A: Chairman’s Statistical Tables
                           Table A: Reports with Disallowed Costs


  Total Number of Reports and the Dollar Value of Disallowed Costs
                                                            Number
                                                                        Dollar Value of
                     Description                              of
                                                                        Disallowed Costs
                                                            Reports
 Reports issued during the period.                              4              $0
 Reports for which final action had not been taken by
                                                               11              $0
 the commencement of the reporting period.
 Reports on which management decisions were made
                                                                3              $0
 during the reporting period.
   Reports for which final action was taken during the
                                                                2              $0
                    reporting period.
     x Dollar value of disallowed costs, recovered                             $0
         by management.
     x Dollar value of disallowed costs written off                            $0
         by management.
 Reports for which no final action has been taken by
                                                               13              $0
 the end of the reporting period.

           Table B: Reports with Recommendations that Funds be Put to Better Use


    Reports with Recommendations that Funds be Put to Better Use
                                                             Number
                                                                          Funds Put to
                     Description                               of
                                                                           Better Use
                                                             Reports
 Reports for which final action had not been taken by the
                                                                11              $0
 commencement of the reporting period.
 Reports on which management decisions were made
                                                                    3           $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                    2           $0
 reporting period including:
     x Dollar value of recommendations that were                                $0
         actually completed.
     x Dollar value of recommendations that
         management has subsequently concluded                                  $0
         should not or could not be completed.
 Reports for which no final action has been taken by the
                                                                13              $0
 end of the reporting period.


                                             A-1

                        Appendix A: Chairman’s Statistical Tables
         U.S. International Trade Commission
                                Appendix A

         Table C: Prior Year Management Decisions Without Final Action

Prior Year Audit Reports On Which Management Decisions Have Been
             Made but Final Action has Not Been Taken
                                              Funds Put        Reason Final
                                Disallowed
 Audit Report    Date Issued                   to Better      Action has Not
                                  Costs
                                                  Use          Been Taken
                                                             Provided in Section
OIG-AR-04-05     09/27/2005         $0            $0            II.B(1) of the
                                                              Chairman’s Letter
                                                             Provided in Section
OIG-AR-11-04     11/10/2010         $0            $0            II.B(2) of the
                                                              Chairman’s Letter
                                                             Provided in Section
OIG-AR-11-11     06/29/2011         $0            $0            II.B(3) of the
                                                              Chairman’s Letter




                                     A-2

                 Appendix A: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
